4a
I

C@OCKLE

2311 Douglas Street Le ga 1 Bri efs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-783
NATHAN VAN BUREN,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of July, 2020, send out from
Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR THE NATIONAL WHISTLEBLOWER CENTER AS
AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
STEPHEN M. KOHN
Counsel of Record
MICHAEL D. KOHN
DAVID K. COLAPINTO
KOHN, KOHN & COLAPINTO, LLP
1710 N Street, N.W.
Washington, D.C. 20036
(202) 342-6980
sk@kkc.com
Attorneys for the
National Whistleblower Center

Subscribed and sworn to before me this 8th day of July, 2020. :
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

My Comm. Exp. September 5, 2023

ee] Kence Q. Beas Qndan ht. Obl

Notary Public Affiant 3995

 
Noel J Francisco

Counsel of Record
Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
Counsel for Respondent

Jeffrey L. Fisher
Counsel of Record
Stanford Law School Supreme Court
Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305
jlfisher@law.stanford.edu
(650) 724-7081
Counsel for Petitioner
